                                      SOCIAL SECURITY
MEMORANDUM

Date:   July 7, 2011                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The   Effects of the Electronic Claims Analysis Tool (A-01-11-21193)


        The attached final report presents the results of our review. Our objective was to
        determine the effects of the Social Security Administration’s electronic claims analysis
        tool in States that use the single decision maker model and on decisions made by the
        Office of Disability Adjudication and Review.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
       The Effects of the
Electronic Claims Analysis Tool

        A-01-11-21193




          July 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                             Background
OBJECTIVE
The objective of our review was to determine the effects of the Social Security
Administration’s (SSA) electronic claims analysis tool (eCAT) in States that use the
single decision maker (SDM) model and on decisions made by the Office of Disability
Adjudication and Review (ODAR).

BACKGROUND
ECAT is a Web-based application designed to document a disability adjudicator’s
analysis and ensure all relevant Agency policies are considered during the disability
adjudication process.1 (See Appendix B for SSA’s process for evaluating disability.)
ECAT produces a Disability Determination Explanation (DDE) that documents the
detailed analysis and rationale for either allowing or denying a claim. SSA began
implementing eCAT nationwide in 2009; and, as of May 2011, every site except the
Texas Disability Determination Services (DDS) had eCAT.

Prototype States, as well as 10 other sites, use the SDM model. 2 SDM allows the
disability examiner to make a disability determination without a mandatory medical
consultant (MC) or psychological consultant 3 sign-off on many claims and gives the
examiner authority to decide when to involve an MC in complex claims. SSA intended
the SDM process to allow the adjudicating components to use examiner and MC
resources more effectively and provide faster determinations.4

On January 5, 2011, we issued a report, The Social Security Administration’s Electronic
Claims Analysis Tool, which stated SSA’s eCAT application was a useful tool in
documenting the analysis of initial disability claims. However, we found the need for
additional training as the tool was being rolled out nationwide.

1
 SSA provides Disability Insurance (DI) benefits and Supplemental Security Income (SSI) disability
payments to eligible individuals under Titles II and XVI of the Social Security Act (see the Social Security
Act §§ 223 and 1611, 42 U.S.C. §§ 423 and 1382).
2
 SSA, POMS, DI 12015.002 (effective January 31, 2011), DI 12015.003 (effective January 31, 2011),
and DI 12015.100 (effective April 11, 2011). In 1999, SSA began piloting the SDM model in 10 Prototype
States (Alabama, Alaska, California [Los Angeles North and West Branches], Colorado, Louisiana,
Michigan, Missouri, New Hampshire, New York, and Pennsylvania). Since 1999, the Agency has
selected nine more States and one U.S. territory to test the SDM model (Florida, Guam, Kansas,
Kentucky, Maine, Nevada, North Carolina, Vermont, Washington, and West Virginia).
3
 MCs can be physicians, psychologists, psychiatrists, optometrists, podiatrists, or speech-language
pathologists. 20 C.F.R. §§ 404.1616 and 416.1016. See also SSA, POMS, DI 24501.001 C (effective
October 19, 2000).
4
 SSA’s Office of Quality Performance (OQP) issued a report in March 2010, Estimating the Effects of
National Implementation of Single Decision Maker.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                        1
On February 2, 2011, the Commissioner of Social Security requested that the Office of
the Inspector General study the effects of eCAT in States that use the SDM model.
(See Appendix C for a copy of the request.)

To perform this review, we requested data files of all disability determinations and
hearing office decisions issued in Calendar Year (CY) 2010. From these files, we
identified 88,691 individuals who received a disability determination from a DDS in
CY 2010 and for whom the (1) disability folder was electronic; (2) determination was
from an SDM without MC sign-off; and (3) claim filing date was at least 1 month after
the DDS that made the determination began using eCAT. 5 We reviewed 500 sample
cases from this population; Table 1 shows these cases by type of claim.

                                   Table 1: SDM Sample Cases
                                      Claim Type            Number
                                  DI only                      205
                                  SSI only                     103
                                  Concurrent                   192
                                  TOTAL                        500

Although the Commissioner requested that we review the combined effects of SDM and
eCAT at the ODAR level, the 20 SDM sites did not finish implementing eCAT until
May 2011—4 in CY 2009, 13 in CY 2010, and 3 in CY 2011. We identified a population
of 6,745 SDM cases that could have used eCAT in the 4 sites that implemented eCAT
in CY 2009. Of these, 468 had a hearing decision from ODAR in CY 2010. We
reviewed the first 100 cases in Social Security number order from these 468 and found
21 cases that used eCAT were processed at the ODAR level in CY 2010 because of
differences in the way each DDS implemented SDM and eCAT and the time it takes to
process appeals.6

We also reviewed the first 5,000 cases in Social Security number order from the
CY 2010 SDM population of 88,691 cases above and found 14 cases (0.3 percent) that
used eCAT were processed at the ODAR level in CY 2010. Based on the analysis of
DDS cases from CYs 2009 and 2010, we determined that the population would not be
sufficient to determine the combined effects of SDM and eCAT on ODAR at the national
level during CY 2010.

The Virginia and Connecticut DDSs, while not SDM sites, piloted eCAT and had fully
implemented it by March 2008. Since other States did not begin using eCAT until 2009,

5
 We identified these cases by the MC sign-offs because SDMs were the only adjudicators allowed to
process claims without MC sign-offs. We limited the timeframe for each State’s population to 1 month
after eCAT implementation so the adjudicators had the option to use eCAT during the period we
reviewed. See Table D-1 in Appendix D for the date each SDM State implemented eCAT.
6
    SSA reported it took 426 days, on average, to process hearing appeals at ODAR in Fiscal Year 2010.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                  2
these two are the only States to have a significant number of cases with eCAT that were
appealed and had a decision rendered by ODAR in 2010. Therefore, we identified
12,277 individuals who received a decision from ODAR in CY 2010 on a DDS
determination from Virginia or Connecticut after April 1, 2008. 7 We reviewed
500 sample cases from this population; Table 2 shows these cases by type of claim.

                                 Table 2: ODAR Sample Cases
                                     Claim Type             Number
                                 DI only                        196
                                 SSI only                       104
                                 Concurrent                     200
                                 TOTAL                          500

We also contacted administrative law judges (ALJ) and attorney advisors who made
decisions on the ODAR sampled claims to determine whether they found the
documentation made using eCAT to be sufficient. (See Appendix D for our scope,
methodology, and sample results.)

SDMs began processing cases in 1999; however, most SDM sites began using eCAT in
2010, when the Agency began implementing the tool nationally. Additionally, since
eCAT is still being rolled out to DDSs, relatively few claims processed with eCAT have
been appealed and decided at the ODAR level. Therefore, the results of our review are
a snapshot of the effects of eCAT in States that use the SDM model and on ODAR
decisions.




7
 In the 500 sample ODAR cases, 466 (93 percent) received a decision from a hearing office in Virginia or
Connecticut. The remaining 34 cases received decisions from offices in 11 different States, the District of
Columbia, and ODAR headquarters.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                   3
                                                           Results of Review
Our early snapshot—including a review of sample cases and input from SSA and DDS
employees—showed eCAT
•     resulted in longer processing for SDM determinations at the DDS level but shorter
      processing times at the ODAR level (see Tables 4 and 6); 8
•     promoted the consistent application of policy, and, consequently, could result in
      allowance rates that are closer to the national average at both the initial and hearing
      levels (see Tables 4, 6, and 7 through 10);
•     had a positive effect on disability examiner training, and reinforced process
      unification principles (see “Training”); and
•     resulted in better documented determinations, and had a positive effect on ODAR
      work processes (see Tables 12 and 13).

CASE PROCESSING

SDM Sample       The allowance rate for SDM cases has been higher than the national
Cases            allowance average in the last few years, as shown in Table 3. In our
                 500 sample cases, summarized in Table 4, SDMs who used eCAT
had allowance rates closer to the national average. 9

              Table 3: DDS Initial Allowance Rates in CYs 2008 Through 2010
                                      All Initial Claims            SDM Initial Claims10
                    CY               Total        Allowance         Total        Allowance
                                    Claims           Rate          Claims           Rate
                   2008           2,632,747          37.0%          353,025          43.1%
                   2009           2,876,297          37.3%          379,933          44.9%
                   2010           3,133,873          35.7%          398,968          42.8%




8
 We did not determine the level of experience—as examiners or with using eCAT—of the SDMs who
made the determinations on the sample cases.
9
 The DDSs used eCAT in 73 percent of cases and did not use eCAT in 27 percent. We compared these
cases and found the ones with eCAT and those without had similar characteristics. (See Appendix D.)
10
     We did not analyze any differences between cases processed by SDMs and all initial claims.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                           4
                          Table 4: SDM Sample Cases (CY 2010) 11
                                                    With eCAT        Without eCAT
                 Allowance Rate                          39.1%              50.0%
                 DDS Processing Time
                                                       81 days            72 days
                 (allowances and denials)


ODAR Sample         The sample ODAR cases where the DDS used eCAT were
Cases               processed faster than those without eCAT, as shown in Table 6.
                    Additionally, the allowance rate for the cases with eCAT was in line
with the national average (Tables 5 and 6). 12

                             Table 5: ODAR Allowance Rates in
                                  FYs 2008 Through 2010
                                     Allowance Rate           National
                            Year     in Virginia and         Allowance
                                      Connecticut              Rate 13
                            2008           67.8%                74.8%
                            2009           66.1%                74.0%
                            2010           66.0%                71.3%


                                Table 6: ODAR Sample Cases
                                                    With eCAT        Without eCAT
                 Allowance Rate                          73.4%              65.1%
                 ODAR Processing Time
                                                      297 days           400 days
                 (allowances and denials)




11
   For the 500 SDM sample cases, the allowance rate was 42 percent and the average DDS processing
time was 78 days. In FY 2010, the national DDS average processing time was 91 days for DI claims and
94 days for SSI claims.
12
  In our sample of 500 ODAR cases, the DDSs used eCAT in 331 cases (66 percent) and did not use
eCAT in 169 cases (34 percent).
13
   We calculated the ODAR allowance rate by dividing the number of claims allowed by the total claims
allowed and denied (excluding dismissals). SSA includes dismissals when calculating and reporting
ODAR allowance rates.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                 5
POLICY ISSUES

To determine whether eCAT promoted the consistent application of policy, we selected
five policy issues related to the disability determination process 14 and reviewed the
sample cases to determine whether these issues were relevant and addressed in the
folder documentation. 15 We reviewed
•     4 policy issues in SDM sample cases and found 11 instances where policy issues
      were not addressed in cases without eCAT and
•     1 policy issue in the ODAR sample cases and found no difference between cases
      with eCAT and those without eCAT.

                    When a DDS needs a consultative examination (CE) to get more
Consultative        information about a claimant’s impairment(s) and level of
Examinations        functioning, generally, the examiner should ask the treating
                    sources to perform the examination. 16 However, there are
exceptions. For example, in cases where the doctor informed the DDS he/she did not
want to perform CEs or the doctor did not respond to the request for evidence or answer
whether he/she would be willing to perform a CE, if needed.

                           Table 7: SDM Sample Cases – CE Issues
                                        Addressed?
                                                With eCAT        Without eCAT
                       No                               0                 2
                       Yes                            175                50
                       No CE obtained                 191                82
                       TOTAL                          366               134




14
  Three of the five policy issues we reviewed related to Social Security Rulings (SSR) 96-2p, 96-3p,
96-5p, 96-6p, and 96-7p. These are some of the SSRs known as the Process Unification Rulings. See
Appendix E for more details on these rulings.
15
  In our review of the SDM and ODAR sample cases, we did not assess whether the final determination
was correct, nor did we assess whether these policy issues were addressed correctly. We only
determined whether these policy issues were relevant to the claim and addressed at all in the file. OQP
conducts reviews of the accuracy of disability determinations. In October 2008, OQP completed a special
study of eCAT and is planning another study.
16
     SSA, POMS, DI 22510.010 (effective September 9, 2004).


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                6
                   The disability adjudicator or reviewing MC should review the
Symptoms and       claimant’s alleged symptoms and determine whether there is a
Credibility        medically determinable impairment that could reasonably cause
                   those symptoms. 17 If there is, the adjudicator or MC should then
determine whether the claimant’s statements about the limiting effects of the symptoms
are credible. 18

                        Table 8: SDM Sample Cases – Symptoms and
                                   Credibility Addressed?
                                                 With eCAT        Without eCAT
                       No                               0                   6
                       Yes                            281                  92
                       Not Applicable 19               85                  36
                       TOTAL                          366                134



                         If any medical source provides a medical opinion on the claimant’s
Medical Source
                         limitations, ability to function, or disability, the adjudicator or MC
Opinions
                         should state the weight given to that opinion in the determination. 20


                   Table 9: SDM Sample Cases – Medical Source Opinion
                                      Addressed?
                                                      With eCAT        Without eCAT
                  No                                          0                   2
                  Yes – in file and addressed               129                 47
                  No opinions in file                       152                 50
                  Not Applicable18                           85                  35
                  TOTAL                                     366                 134




17
     SSR 96-3p. See also, SSA, POMS, DI 24505.003 (effective October 30, 2001).
18
     SSR 96-7p. See also, SSA, POMS, DI 24515.066 (effective May 13, 1999).
19
   There are instances when these issues would not be relevant to a claim, such as when the claim is
allowed based on meeting a listing or the claim is denied with no medical evidence in file.
20
  SSRs 96-2p and 96-5p. See also, SSA, POMS, DI 24515.004 and DI 24515.009 (effective
February 14, 2001) and DI 24515.003 (effective June 13, 2001).


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                7
     Multiple Non-Severe     If a claimant has multiple impairments and each
                             impairment is determined not to be severe, the examiner
     Impairments
                             or MC should determine whether the combined effects of
all the impairments are severe or non-severe. 21

                     Table 10: SDM Sample Cases – Multiple Non-Severe
                                 Impairments Addressed?
                                                       With eCAT        Without eCAT
                    No                                         0                   1
                    Yes                                       13                   0
                    Did not have multiple
                                                            353                 133
                    non-severe impairments
                    TOTAL                                   366                 134


     ODAR Address DDS     At the ODAR level, the decision-maker should consider the
     MC Opinion           administrative findings of fact by DDS MCs in the hearing
                          decision. 22 As shown in Table 11, most hearing decisions
included a statement of how the ALJ or attorney advisor considered the MC opinion in
the decision. 23

                 Table 11: ODAR Sample Cases – Hearing Decision Notice
                              Address DDS MC Opinion? 24
                                                 With eCAT               Without eCAT
              Yes                               291        95.1%         155           95.1%
              No – Hearing Held                  15         4.9%           8           4.9%
              TOTAL                             306         100%         163           100%




21
     SSA, POMS, DI 24505.005 (effective April 19, 2007).
22
     SSR 96-6p. See also, SSA, POMS, DI 24515.013 (effective February 14, 2001).
23
  Some ALJs may not have addressed MC opinions provided on the DDE because they were not familiar
with the document. In some cases, the hearing decision stated there was no MC opinion in file when
there was an MC assessment provided in the DDE. On April 25, 2011, ODAR issued an informational
memorandum, “Placement of the Disability Determination Explanation (DDE) in the Certified Electronic
Folder,” which reminded all hearing office personnel, including ALJs, of the placement of the DDE and its
contents.
24
  In the 500 sample cases, this policy issue was not applicable for 31 cases—28 oral (bench) decisions,
which are not required to address this policy issue in the notice; 2 cases where the ALJ denied the claim
because the individual was working, so there was no need to address the DDS MC opinion; and 1 case
where the DDS denied the claim for failure to cooperate, so there was no MC opinion in the file.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                     8
TRAINING

For our January 2011 report, The Social Security Administration’s Electronic Claims
Analysis Tool (A-01-10-11010), we visited six DDS sites and one Federal Disability
Processing Branch. 25 Every site reported that eCAT was useful for new hire training.
For example, staff at these sites reported eCAT
•    is an invaluable tool for training new examiners, as it leads them to the next step in
     the disability decision process;
•    keeps examiners in line with SSA policy;
•    requires that examiners address every step in the sequential evaluation process;
•    forces examiners to address medical source statements and credibility issues;
•    ensures that examiners do not omit things from their review;
•    is an excellent documentation tool, and reinforces policy issues;
•    connects all the dots of the disability determination, and helps examiners see how all
     the pieces come together to make a decision;
•    does not make a slow examiner better or faster, but helps them document better;
     and
•    is just a tool. It does not guarantee that cases are done well—bad examiners are
     still bad examiners even if they use eCAT.

ECAT DOCUMENTATION AND EFFECTS OF ECAT ON ODAR CLAIMS

We asked 75 ALJs and attorney advisors the following questions, and 52 responded. 26

1. Is the DDE an improvement in how                    Chart 1: ODAR Decision-maker Responses
   cases are documented by the
                                                    52 - Responses
   DDS? 27 (For example, does it                       Received                           3 - Did not wish to
   highlight all the issues that need to                 (69%)                                participate
                                                                                                 (4%)
   be addressed in a case, does it
   shorten the time it takes you or
   your staff to review the DDS’
   documentation, etc.?)
                                                                                          20 - No Response
                                                                                               Received
                                                                                                (27%)

25
   During our site visits, we found the need for additional training at one site. In February 2011, the eCAT
Team, along with experts in medical and vocational policies from SSA Headquarters, provided onsite
training on current policy issues and how to use eCAT properly.
26
  In our review of 500 sample ODAR cases, we identified 65 ALJs and 16 attorney advisors who issued
these decisions. Of these 81 ODAR employees, 6 no longer worked for the Agency as of April 2011.
Therefore, we only contacted the remaining 75 ODAR employees.
27
  ECAT prepares the DDE to document the detailed analysis and rationale for either allowing or denying
a claim.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                         9
2. Do you find the documentation of determinations summarized on the DDE to be
   sufficient? Are you able to follow all the steps the DDS took to make its
   determination?
3. Do you have any other comments to share about your experience of claims that
   summarized the initial and/or reconsideration determination on a DDE?

As shown in Tables 12 and 13, the ALJs and attorney advisors generally believed the
DDE was an improvement in how cases are documented at the DDS, and the
documentation was sufficient to understand how the DDS made its determination.

                         Table 12: ODAR Responses – DDE an
                                    Improvement?

                          Opinion            Number            Portion

                    Yes                           28              54%
                    No                            11              21%
                    Partially Yes                  8              15%
                    No Opinion                     5              10%
                    TOTAL                         52             100%


                     Table 13: ODAR Responses – Documentation
                            Summarized on DDE Sufficient?

                          Opinion             Number           Portion

                    Yes                           36              69%
                    Sometimes                      7              13%
                    No                             4               8%
                    No Opinion                     5              10%
                    TOTAL                         52             100%

The comments we received from ALJs and attorney advisors about the DDE included
the following.

•   In the majority of the cases, the DDS took the time to fully document its decision-
    making at all steps and adequately articulated a rationale. This allowed the judge to
    readily see what the DDS did to determine whether the evidence, as it existed at the
    time, supported the rationale.
•   The DDE is a useful starting place for the hearing office, particularly if it is complete,
    precise, and in English rather than in code (as queries from SSA’s systems often
    are).



QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                     10
•   The DDS’ documentation is very helpful in determining the issues of a particular
    case fairly quickly and what the case “hinges on.” It also allows you to focus on
    which additional records might be helpful in arriving at an early favorable decision
    rather than using a blanket request for records.
•   The eCAT tool has been quite effective. Judges are paying more attention to what
    the DDS has done because there is an articulated, rational basis. More weight is
    now being credited to the DDS’ opinions because of this articulated rationale.
•   The DDE is an improvement because all the information is in one place. The
    document itself is unwieldy and not easy to use or digest. Interestingly, it highlights
    errors or weaknesses in the analysis.
•   If done correctly, it would save time. The quality of eCAT workups from the DDS
    employees differs according to who prepares them.
•   The documentation provided in the DDE is not sufficient. I am able to follow the
    steps, as they are structured well. However, this cookie-cutter approach makes it
    too easy for the adjudicator to make quick answers without much comment.
•   The rationale lacks the kind of credibility determination that is necessary at the
    ODAR level.
•   It is difficult to determine whether the physical or mental assessments in the DDE
    were prepared by an MC or an SDM. At the ODAR level, the adjudicator is required
    to consider an assessment prepared by an MC as a medical opinion and address it
    in the decision. However, an assessment prepared by an SDM is not considered a
    medical opinion and cannot be given weight in the decision.




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                    11
                                                                   Conclusions
SDMs began processing cases in 1999; however, most SDM sites began using eCAT in
2010, when the Agency began implementing the tool nationally. Additionally, since
eCAT is still being rolled out to DDSs, relatively few claims processed with eCAT have
been appealed and decided at the ODAR level. Therefore, the results of our review are
a snapshot of the effects of eCAT in States that used the SDM model and on ODAR
decisions during CY 2010.

Our early snapshot—including a review of 500 sample SDM cases, 500 sample ODAR
cases, and input from SSA and DDS employees—showed eCAT
•   resulted in longer processing for SDM determinations at the DDS level but shorter
    processing times at the ODAR level;
•   promoted the consistent application of policy, and consequently, could result in
    allowance rates that are closer to the national average at both the initial and hearing
    levels;
•   had a positive effect on disability examiner training, and reinforced process
    unification principles; and
•   resulted in better documented determinations, and had a positive effect on ODAR
    work processes.

During FY 2012, we plan to begin a review of the SDM pilot—including analyses of
processing times, allowance rates, and effects on ODAR. We also plan to conduct an
additional study of eCAT once time has elapsed for users in the DDSs and ODAR to
integrate the tool fully into their business processes. For that review, we will be able to
analyze the combined effects of SDM and eCAT at the ODAR level and determine
whether these initiatives reduce State-specific, prototype-specific, or hearing office
specific variations.




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                   12
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – The Social Security Administration’s Process for Evaluating Disability in
             Adults and Children
APPENDIX C – Request for Review
APPENDIX D – Scope, Methodology, and Sample Results
APPENDIX E – Process Unification
APPENDIX F – OIG Contacts and Staff Acknowledgments




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)
                                                                          Appendix A

Acronyms
    AC                  Appeals Council

    ALJ                 Administrative Law Judge

    CE                  Consultative Examination

    C.F.R.              Code of Federal Regulations

    CY                  Calendar Year

    DDE                 Disability Determination Explanation

    DDS                 Disability Determination Service

    DI                  Disability Insurance

    eCAT                Electronic Claims Analysis Tool

    MC                  Medical Consultant

    ODAR                Office of Disability Adjudication and Review

    OQP                 Office of Quality Performance

    POMS                Program Operations Manual System

    RFC                 Residual Functional Capacity

    SDM                 Single Decision Maker

    SGA                 Substantial Gainful Activity

    SSA                 Social Security Administration

    SSI                 Supplemental Security Income

    SSR                 Social Security Ruling

    U.S.C.              United States Code




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)
                                                                                      Appendix B

The Social Security Administration’s Process
for Evaluating Disability in Adults and Children
Under the Social Security Act, an adult is considered to be disabled if he/she is unable
to engage in substantial gainful activity (SGA) 1 by reason of a medically determinable
physical or mental impairment that can be expected to result in death or that has lasted
or can be expected to last for a continuous period of not less than 12 months.2

The Social Security Administration (SSA) has a five-step sequential process for
evaluating disability for adults, which generally follows the definition of disability in the
Social Security Act (Chart B-1). 3 The steps are followed in order. If a decision about
disability can be made at a step, the analysis stops and a decision is made. If a
decision about disability cannot be made, the adjudicator proceeds to the next step.

At Step 1 in the process, SSA generally considers whether the claimant is performing
SGA. If the claimant is performing SGA, SSA finds that he/she is not disabled,
regardless of the severity of his/her impairments. If the claimant is not performing SGA,
the claim is sent for a determination of disability at a later step of the process. When
the claim is initially developed, the adjudicator generally requests all the evidence
needed for consideration at Steps 2 through 5 of the sequential evaluation process.
The adjudication process stops when a decision regarding disability can be made at any
step. 4




1
  20 C.F.R. §§ 404.1572 and 416.972: SGA means the performance of significant physical and/or mental
activities in work for pay or profit, or in work of a type generally performed for pay or profit. As of 2011,
"countable earnings" of employees indicate SGA and "countable income" of the self-employed is
"substantial" if the amount averages more than $1,000 per month for non-blind individuals or $1,640 for
blind individuals, SSA, POMS, DI 10501.015 (effective October 15, 2009).
2
 The Social Security Act §§ 216(i)(1), 223(d)(1), and, 1614(a)(3), 42 U.S.C. §§ 416(i)(1), 423(d)(1), and
1382c(a)(3), see also 20 C.F.R. §§ 404.1505 and 416.905.
3
    20 C.F.R. §§ 404.1520 and 416.920.
4
 20 C.F.R. §§ 404.900 and 416.1400. If the claimant disagrees with the Agency’s initial disability
determination, he/she can file an appeal within 60 days from the date of notice of the determination. In
most cases, there are three levels of administrative appeal: (1) reconsideration by the disability
determination services, (2) hearing by an administrative law judge, and (3) request for review by the
Appeals Council. If a claimant is still dissatisfied after exhausting administrative remedies, he or she can
appeal for a review by a Federal court.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                   B-1
At Step 2, SSA determines whether the claimant’s impairment—or combination of
impairments—is severe. 5 If the claimant does not have a medically determinable
impairment(s) that is severe, the claim is denied. If the claimant has a medically
determinable severe impairment(s), the Agency goes to Step 3 and looks to the Listings
of Impairments. If the severity of the impairment meets or medically equals a specific
listing and meets the duration requirement, the individual is determined to be disabled.

If the individual’s impairment does not meet or medically equal a listing, the Agency
goes to Step 4, and, if necessary, Step 5. At Step 4, the Agency determines whether
the claimant can perform any past relevant work, considering his/her residual functional
capacity (RFC) 6 and the physical and mental demands of the work he/she did. If the
claimant can perform past relevant work, the claim is denied. If the claimant cannot
perform past relevant work, SSA goes to Step 5 and determines whether the claimant
can perform any other work that exists in the national economy, considering his/her
RFC, age, education, and past work experience. If the claimant can perform any other
work, then SSA finds him/her not disabled; if the claimant cannot perform any other
work, SSA finds him/her disabled. 7




5
 20 C.F.R. §§ 404.1520(c), 404.1521, 416.920(c), and 416.921: “Severe” is a term of art in SSA’s rules.
An impairment or combination of impairments is not severe if it does not significantly limit an individual’s
physical or mental ability to do basic work activities. See Social Security Ruling (SSR) 85-28.
6
  20 C.F.R. §§ 404.1545 and 416.945: An individual’s impairment(s), and any related symptoms, such as
pain, may cause physical and mental limitations that affect what he or she can do in a work setting. The
RFC is the most the individual can still do despite these limitations. SSA assesses RFC based on all
relevant evidence in the case record.
7
 SSA has another sequential process for evaluating whether a disabled beneficiary’s disability continues.
20 C.F.R. §§ 404.1594(f) and 416.994(b). This process generally requires a showing of medical
improvement related to the ability to work but also includes steps like the ones in the initial sequential
evaluation process.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                                   B-2
                                   Chart B-1: SSA’s Five-Step Sequential Evaluation
                                          for Determining Disability for Adults


                                                   Step 1: SGA
                             Yes      Is the claimant engaging in SGA?

                                                       No

                                            Step 2: Medical Severity
                                      Does the claimant have a severe
                                No
                                      medically determinable impairment(s)
                                      that meets the duration requirement?

                                                       Yes
                                                  Step 3: Listings
                       Not
                                      Does the claimant have an                 Yes     Disabled
                     Disabled
                                      impairment(s) that meets or equals a
                                      listing and meets the duration
                                      requirement?

                                                       No
                                No           Step 4: Previous Work
                                      Does the impairment(s) prevent the
                                      claimant from doing any past relevant
                                      work?

                                                         Yes
                                                Step 5: Other Work
                                      Does the impairment(s) prevent the
                             No       claimant from doing any other work        Yes
                                      that exists in the national economy?




Under the Social Security Act, an individual under age 18 is considered disabled for the
purposes of Supplemental Security Income (SSI) if he or she has a medically
determinable physical or mental impairment, which results in marked and severe
functional limitations and can be expected to result in death or has lasted or can be
expected to last for a continuous period of not less than 12 months.8

As shown in Chart B-2, SSA has a similar sequential process with three steps for
evaluating disability in children under SSI. 9 Steps 1 and 2 are the same as for adults,
with “severe” defined in terms of age-appropriate childhood functioning instead of basic
work-related activities. At Step 3, SSA determines whether the impairment(s) meets or
medically equals a listing or functionally equals the listings.

8
    The Social Security Act, § 1614(a)(3)(C), 42 U.S.C. § 1382c(a)(3)(C). See also 20 C.F.R. § 416.906.
9
    20 C.F.R. § 416.924.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                               B-3
                     Chart B-2: SSA’s Three-Step Sequential Evaluation
                           for Determining Disability for Children


                        Yes              Step 1: Work Test
                               Is the claimant engaging in
                               substantial gainful activity?

                                    No
                                     Step 2: Severity Test
                         No    Does the claimant have a medically
                               determinable severe impairment(s)?

                                             Yes
                                       Step 3: Listings Test
               Not       No    Does the impairment(s) meet or       Yes   Disabled
             Disabled          medically equal a listing or
                               functionally equal the listings?




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)              B-4
                                                                          Appendix C

Request for Review




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)
QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)   C-1
QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)   C-2
                                                                          Appendix D

Scope, Methodology, and Sample Results
To achieve our objective, we:

•   Reviewed applicable sections of the Social Security Act and Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.

•   Reviewed our January 5, 2011 report, The Social Security Administration’s
    Electronic Claims Analysis Tool (A-01-10-11010). For that review, we met with
    Agency officials and staff from the Offices of Disability Programs, Disability
    Determinations, Disability Systems, Adjudication and Review (ODAR), and Quality
    Performance. We also conducted site visits at six disability determination services
    (DDS) sites and one Federal Disability Processing Branch.

•   Identified 88,691 individuals for whom (1) an initial disability determination was
    received in Calendar Year (CY) 2010; (2) the disability folder was an electronic
    folder; (3) the determination was from a single decision-maker (SDM) without
    medical consultant (MC) signoff; and (4) the claim filing date was at least 1 month
    after the DDS that made the determination began using the Electronic Claims
    Analysis Tool (eCAT).

•   Randomly sampled 500 cases from the 88,691 SDM cases. For each case, we
    calculated the number of days it took for the DDS determination and used the results
    to determine the average DDS processing time. We also analyzed four policy issues
    for each sample case: (1) consultative examination issues—documenting whether a
    treating source would perform an examination if needed, (2) addressing symptoms
    and credibility, (3) addressing medical source opinions, and (4) addressing multiple
    non-severe impairments.

•   Upon review, replaced 24 sample cases: 16 were not SDM cases (even though
    there was no MC code in SSA’s systems); 6 involved technical issues that did not
    require a full determination of disability; 1 did not have an initial determination in
    CY 2010 (but did have a reconsideration); and 1 did not have all the documentation
    needed for our review in the electronic folder.

•   Identified 6,745 claimants for whom (1) an initial disability determination was
    received in CY 2009; (2) the disability folder was an electronic folder; (3) the
    determination was from an SDM without MC signoff; and (4) the claim filing date was
    at least 1 month after the DDS that made the determination began using eCAT. Of
    these 6,745 cases, 468 had a hearing decision from ODAR in CY 2010. Of the
    468 cases, we reviewed the first 100 cases in Social Security number order and




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                   D-1
    found only 21 cases that used eCAT during CY 2009 were processed at the ODAR
    level in CY 2010 because of the time it takes to process appeals.1

•   Reviewed the first 5,000 cases from the SDM population in Social Security number
    order. For each case, we reviewed SSA’s systems and electronic disability folders
    to determine whether ODAR processed the claim in CY 2010, and if so, whether the
    DDS determination was by a SDM who used eCAT. We found only 14 of the
    5,000 cases (0.3 percent) met these criteria. Based on this analysis, we determined
    that the population would not be sufficient to determine the combined effect of SDM
    and eCAT on ODAR at the national level during CY 2010.

•   Identified 12,277 individuals who received a decision from a hearing office between
    January 1 and December 31, 2010 on ODAR cases that were appeals of
    Connecticut or Virginia DDS claims in CYs 2008 through 2010. Virginia and
    Connecticut were the first two States to use eCAT and fully implemented it by
    March 2008. Therefore, these two States have cases that were appealed and had a
    decision rendered by ODAR.

•   Randomly sampled 500 cases from the 12,277 ODAR cases. For each case, we
    calculated the number of days ODAR took to make the decision and used the results
    to determine the average ODAR processing time. We also reviewed the decision
    notice for each case to determine whether it addressed the DDS medical opinion.

•   Upon review, replaced 71 sample cases: 66 were dismissals, 3 had a DDS
    determination before eCAT implementation, and 2 did not have all the
    documentation needed for our review in the electronic folder.

•   Contacted the administrative law judges and attorney advisors who issued decisions
    on the sample cases and obtained feedback on eCAT and its effect on ODAR
    claims.

We performed our review between February and April 2011 in Boston, Massachusetts.
We tested the data obtained for our review and determined them to be sufficiently
reliable to meet our objective. We conducted our review in accordance with the Council
of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
and Evaluation.




1
  SSA reports that it took 426 days, on average, to process hearing appeals at ODAR in Fiscal Year
2010. Therefore, based on the eCAT implementation dates, sufficient time had not elapsed for a
significant number of SDM cases with eCAT to be processed by ODAR for our review.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                              D-2
SAMPLE RESULTS

Table D-1 shows the SDM sites, the eCAT implementation date for each site, and the
number of cases in the population and our sample.

                   Table D-1: SDM Cases Population and Sample by State
                                         eCAT Production          Cases in      Cases in
                          State
                                              Date               Population     Sample
                Alabama                    April 11, 2011                  0            0
                Alaska                      April 5, 2010               943             6
                             2
                California                 June 14, 2010                914             9
                Colorado                  January 1, 2009             9,802            50
                Florida                   August 23, 2010             6,142            27
                Guam                      August 30, 2010                 21            0
                Kansas                   October 25, 2010                 20            0
                Kentucky                    May 3, 2010              14,782            88
                Louisiana               September 1, 2009            16,438            83
                Maine                  September 27, 2010                 48            0
                Michigan                  October 1, 2009            25,411          148
                Missouri                November 1, 2010                  80            1
                Nevada                     April 11, 2011                  0            0
                New Hampshire               May 2, 2011                    0            0
                New York                November 30, 2010                  0            0
                North Carolina            August 1, 2009             10,941            73
                Pennsylvania              August 30, 2010             1,010             3
                Vermont                September 13, 2010                 19            0
                Washington                 June 28, 2010              2,068            12
                West Virginia           September 7, 2010                 52            0
                TOTAL                                                88,691          500




2
    California implemented SDM only in the Los Angeles North and Los Angeles West offices.


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                      D-3
                   Table D-2: SDM Sample Cases - Determinations

                              DDS Used eCAT                DDS Did Not Use eCAT
     Claim Type                                                                         TOTAL
                         Allow       Deny        Total    Allow        Deny     Total

DI only                      74             73     147        34           24     58     205
SSI only                     28             50      78        13           12     25     103
Concurrent                   41          100       141        20           31     51     192
                            143          223       366        67           67    134
TOTAL                                                                                    500
                        (39.1%)     (60.9%)      (100%)   (50.0%)     (50.0%) (100%)
Overall DDS
                                    81 days                           72 days
Processing Time



                           Table D-3: ODAR Cases by Hearing
                                     Office Location

                                    State            Cases in Sample

                         Virginia                             305
                         Connecticut                          161
                         District of Columbia                  13
                         Delaware                                 4
                         New York                                 3
                         ODAR Headquarters                        3
                         North Carolina                           2
                         West Virginia                            2
                         Florida                                  1
                         Hawaii                                   1
                         Kansas                                   1
                         Maryland                                 1
                         Maine                                    1
                         New Hampshire                            1
                         Tennessee                                1
                         TOTAL                                500




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                    D-4
                      Table D-4: ODAR Sample Cases - Decisions

                              DDS Used eCAT                 DDS Did Not Use eCAT
     Claim Type                                                                          TOTAL
                         Allow      Deny         Total     Allow      Deny       Total

DI only                     115         20         135         45         16       61     196
SSI only                     40         25          65         22         17       39     104
Concurrent                   88         43         131         43         26       69     200
                            243         88         331        110         59      169
TOTAL                                                                                     500
                        (73.4%)    (26.6%)       (100%)   (65.1%)     (34.9%) (100%)
Overall ODAR
                                  297 days                          400 days
Processing Time

In our sample of 500 cases, the SDM made disability determinations without consulting
an MC on 75 percent of initial claims. In the remaining cases, the SDM consulted with
an MC but processed the claim without an overall MC signature. Table D-5 shows
these by cases processed with eCAT and those without eCAT.

                    Table D-5: SDM Sample Cases—Use of Medical
                                    Consultants
                                                          SDM Did
                                           SDM
                                                            not         All
                                         Consulted
                                                          Consult      Cases
                                          with MC
                                                          with MC
                  With eCAT               103 (28%)       263 (72%)       366
                  Without eCAT               24 (18%)     110 (82%)       134
                  TOTAL                   127 (25%)       373 (75%)       500

As shown in Table D-6, 20 sample cases were identified for expedited processing, such
as Quick Disability Determinations, Compassionate Allowances, Terminal Illness Cases,
or Military Service Casualty Cases.

                      Table D-6: SDM Sample Cases Identified for
                                 Expedited Processing
                                                           All
                                       Allow      Deny              DDS Time
                                                          Cases
                  With eCAT                14        1        15       38 days
                  Without eCAT               5       0         5       16 days
                  TOTAL                    19        1        20




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                     D-5
Tables D-7 through D-10 show several characteristics were similar for the SDM sample
claims processed with eCAT and those without eCAT.

                   Table D-7: SDM Sample Cases – Claimant Age at
                                   Determination

                                         Average       Range         Median

                  With eCAT                 47         18 to 70            49
                  Without eCAT              48         18 to 69        51



              Table D-8: SDM Sample Cases by Type of Determination
                                                                                 Without
                       Characteristics                     With eCAT
                                                                                  eCAT

       Allowed – Medical and Vocational Factors              76 (21%)             40 (30%)
       Allowed – Met or Equaled a Listing                    67 (18%)             26 (19%)
       Denied – Medical and Vocational Factors              152 (42%)             44 (33%)
       Denied – Not Severe                                     31 (9%)              8 (6%)
       Denied – Not expected to last 12 months                 18 (5%)              5 (4%)
       Denied – Insufficient evidence                          12 (3%)              6 (4%)
       Denied – Failure to Cooperate                              8 (2%)            4 (3%)
       Denied – Did not pursue claim                              1 (0%)            1 (1%)
       Denied – Did not follow prescribed treatment               1 (0%)            0 (0%)
       TOTAL                                               366 (100%)           134 (100%)




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                      D-6
             Table D-9: SDM Sample Cases by Primary Diagnosis Code
                                                    eCAT            Non eCAT                 All
         Primary Diagnosis Code                                                            Sample
                                               Allow     Deny      Allow       Deny        Cases
Disorder of Back                                   23       52         12       18           105
Osteoarthritis and Allied Disorders                17       18            6      4            45
Diabetes Mellitus                                   3       12            3      1            19
Affective Disorders                                 3         7           4      3            17
Other and Unspecified Arthropathies                 1       12            0      4            17
Chronic Ischemic Heart Disease                      2         5           3      2            12
Essential Hypertension                              1         7           1      2            11
Chronic Renal Failure                               8         0           2      1            11
Late Effects of Cerebrovascular Disease             4         2           4      1            11
Chronic Pulmonary Insufficiency                     5         2           1      2            10

All Others                                         76      106         30       30           242
TOTAL                                             143      223         66       68           500



                   Table D-10: SDM Sample Cases - Disorders of Back
                                                                              Without
                         Characteristics                  With eCAT
                                                                               eCAT

         Average Age at Determination                             49                  49
         Age Range                                          22 to 63           24 to 63
         Median Age                                               50                  51

         Allow – Medical and Vocational Factors             23 (31%)           12 (40%)
         Denied – Medical and Vocational Factors            43 (58%)           14 (47%)
         Denied – Not Severe                                  4 (5%)             1 (3%)
         Denied – Not expected to last 12 months              3 (4%)             1 (3%)
         Denied – Insufficient evidence                       1 (1%)             2 (7%)
         Denied – Failure to Cooperate                        1 (1%)             0 (0%)
         TOTAL                                             75 (100%)          30 (100%)

As shown in Tables D-11 through D-13, a lower percentage of cases with eCAT had a
hearing than cases without eCAT, most cases had additional evidence received after
the DDS determination, and the most common diagnosis was disorders of back.




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                            D-7
              Table D-11: ODAR Sample Cases – Type of Hearing Decision
                                            With eCAT                 Without eCAT
             ALJ – Hearing Held            246       74.3%            150       88.8%
             ALJ – On the Record
                                            60       18.1%             16        9.5%
             or Bench Decision
             Attorney Advisor               25           7.6%           3        1.7%
             TOTAL                         331       (100%)           169       (100%)



         Table D-12: ODAR Sample Cases – Additional Evidence Received
                           After DDS Determination
                                                                With eCAT       Without eCAT
  Additional Evidence Since DDS – ODAR Allowed                   224 (68%)         103 (61%)
  Additional Evidence Since DDS – ODAR Denied                     76 (23%)            53 (31%)
  No Additional Evidence Since DDS – ODAR Allowed                    19 (6%)            7 (4%)
  No Additional Evidence Since DDS – ODAR Denied                     12 (3%)            6 (4%)
  TOTAL                                                         331 (100%)       169 (100%)


              Table D-13: ODAR Sample Cases by Primary Diagnosis Code
                                                     eCAT               Non eCAT            All
         Primary Diagnosis Code                                                           Sample
                                                 Allow     Deny        Allow    Deny      Cases
Disorder of Back                                   65           28       40      21          154
Affective Disorders                                34            9       15       7              65
Osteoarthritis and Allied Disorders                11            7          6     3              27
Diabetes Mellitus                                    8           2          5     2              17
Disorders of Muscle, Ligament and Fascia             6           4          4     1              15
Other and Unspecified Arthropathies                  7           1          4     2              14
Attention Deficit Disorder                           4           3          4     2              13
Fracture of Lower Limb                               6           3          2     1              12
Chronic Ischemic Heart Disease                       6           2          1     0              9
Cardiomyopathies                                     7           1          0     0              8

All Others                                         89           28       29      20          166
TOTAL                                             243           88      110      59          500




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                           D-8
                                                                                Appendix E

Process Unification
SUMMARY OF THE SOCIAL SECURITY RULINGS (OR PROCESS UNIFICATION
RULINGS) 1

Process unification is an initiative with the objective of fostering similar results on similar
cases at all stages of the administrative review process by consistently applying laws,
regulations, and rulings. Process unification activities include training, developing a
single presentation of policy, and enhancing documentation and explanations at the
disability determination services (DDS) level.

•   Social Security Ruling (SSR) 96-2p: “Giving Controlling Weight to Treating Source
    Medical Opinions.” Policy on giving controlling weight to a treating physician’s
    medical opinion about the nature and severity of an impairment when the opinion is
    not inconsistent with other substantial evidence in the claimant’s file, and the opinion
    is well-supported by medically acceptable diagnostic techniques.

    Citations: Sections 205(a), 216(i), 223(d), 1614(a)(3), and 1631(d) of the Social
    Security Act, as amended; Regulations No. 4, sections 404.1502 and 404.1527, and
    Regulations No. 16, sections 416.902 and 416.927.

•   SSR 96-3p: “Considering Allegations of Pain and Other Symptoms in Determining
    Whether a Medically Determinable Impairment is Severe.” Policy on considering a
    claimant’s subjective symptoms in determining the severity of an impairment at Step
    2 of the sequential evaluation process.

    Citations: Sections 216(i), 223(d), and 1614(a)(3) of the Social Security Act, as
    amended; Regulations No. 4, sections 404.1508, 404.1520(a) and (c), 404.1521,
    404.1523, 404.1528, and 404.1529; and Regulations No. 16, sections 416.908,
    416.920(a) and (c), 416.921, 416.923, 416.924(b) and (d), 416.924d, 416.928, and
    416.929.




1
  SSA, POMS, DI 24515.004 (effective February 14, 2001); DI 24505.003 (effective October 30, 2001);
DI 24515.065 (effective January 16, 1997); DI 24515.009 (effective February 14, 2001); DI 24515.013
(effective February 14, 2001); DI 24515.066 (effective May 13, 1999); DI 24510.006 (effective
May 14, 2008); and DI 25015.020 (effective January 30, 2007).


QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                           E-1
•   SSR 96-4p: “Symptoms, Medically Determinable Physical and Mental Impairments,
    and Exertional and Nonexertional Limitations.” Policy on determining a mental or
    physical impairment by medical signs and laboratory results and the type of
    limitations of function restricting work ability.

    Citations: Sections 216(i), 223(d), and 1614(a)(3) of the Social Security Act, as
    amended; Regulations No. 4, sections 404.1505, 404.1508, 404.1520, 404.1528(a),
    404.1529, 404.1569a and subpart P, appendix 2; and Regulations No. 16, sections
    416.905, 416.908, 416.920, 416.924, 416.928(a), 416.929, and 416.969a.

•   SSR 96-5p: “Medical Source Opinions on Issues Reserved to the Commissioner.”
    Policy on such issues as whether an individual is disabled, whether an individual's
    impairment(s) meets, or is equivalent in severity to, the requirements of any
    impairment(s) in the Listings, what an individual's residual functional capacity (RFC)
    is, whether an individual's RFC prevents him or her from doing past relevant work,
    and how the vocational factors of age, education, and work experience apply.

    Citations: Sections 205(a) and (b)(1), 216(i), 221(a)(1) and (g), 223(d), 1614(a),
    1631(c)(1) and (d)(1), and 1633 of the Social Security Act, as amended; Regulations
    No. 4, sections 404.1503, 404.1504, 404.1512, 404.1513, 404.1520, 404.1526,
    404.1527, and 404.1546; Regulations No. 16, sections 416.903, 416.904, 416.912,
    416.913, 416.920, 416.924, 416.924d, 416.926, 416.926a, 416.927, and 416.946.

•   SSR 96-6p: “Consideration of Administrative Findings of Fact by State Agency
    Medical and Psychological Consultants and Other Program Physicians and
    Psychologists at the Administrative Law Judge (ALJ) and Appeals Council (AC)
    Levels of Administrative Review; Medical Equivalence.” Policy on using DDS-level
    medical and psychological findings at the ALJ and AC levels.

    Citations: Sections 216(i), 223(d) and 1614(a) of the Social Security Act, as
    amended; Regulations No. 4, sections 404.1502, 404.1512(b)(6), 404.1526,
    404.1527, and 404.1546; and Regulations No. 16, sections 416.902, 416.912(b)(6),
    416.926, 416.927, and 416.946.

•   SSR 96-7p: “Evaluation of Symptoms in Disability Claims: Assessing the Credibility
    of an Individual’s Statements.” Policy on evaluating a claimant’s statements about
    pain and other symptoms, following the two-step process set forth in the regulations.

    Citations: Sections 216(i), 223(d), and 1614(a)(3) of the Social Security Act, as
    amended; Regulations No. 4, sections 404.1528(a), 404.1529, and 404.1569a; and
    Regulations No. 16, sections 416.928(a), 416.929, and 416.969a.




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                 E-2
•   SSR 96-8p: “Assessing Residual Functional Capacity (RFC) in Initial Claims.”
    Policy on assessing an individual’s RFC and using the RFC assessment in Steps 4
    and 5 in the sequential evaluation process.

    Citations: Sections 223(d) and 1614(a) of the Social Security Act, as amended;
    Regulations No. 4, subpart P, sections 404.1513, 404.1520, 404.1520a, 404.1545,
    404.1546, 404.1560, 404.1561, 404.1569a, and appendix 2; and Regulations
    No. 16, subpart I, sections 416.913, 416.920, 416.920a, 416.945, 416.946, 416.960,
    416.961, and 416.969a.

•   SSR 96-9p: “Determining Capability to Do Other Work—Implications of a RFC for
    Less Than a Full Range of Sedentary Work.” Policy on the impact of an RFC
    assessment for less than a full range of sedentary work on an individual's ability to
    do other work.

    Citations: Sections 223(d) and 1614(a) of the Social Security Act, as amended;
    Regulations No. 4, sections 404.1513(c), 404.1520, 404.1520a, 404.1545,
    404.1546, 404.1560, 404.1561, 404.1562, 404.1563 through 404.1567, 404.1569,
    404.1569a; appendix 1 of subpart P, section 12.00; appendix 2 of subpart P,
    sections 200.00 and 201.00; Regulations No. 16, sections 416.913(c), 416.920,
    416.920a, 416.945, 416.946, 416.960, 416.961, 416.962, 416.963 through 416.967,
    416.969, and 416.969a.




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)                 E-3
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

   David Mazzola, Audit Manager

Acknowledgments
In addition to those named above:

   Kevin Joyce, IT Specialist

   Brennan Kraje, Statistician

   Toni Paquette, Program Analyst

   Katie Toli, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-11-21193.




QRE: The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
